<html>
<title> - FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS APPROPRIATIONS FOR 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]


 
      FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS 
                    APPROPRIATIONS FOR 2004--Part 1B
      FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS 
                        APPROPRIATIONS FOR 2004

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED EIGHTH CONGRESS
                              FIRST SESSION
                                ________
   SUBCOMMITTEE ON FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED 
                                PROGRAMS
                      JIM KOLBE, Arizona, Chairman
 JOE KNOLLENBERG, Michigan        NITA M. LOWEY, New York
 JERRY LEWIS, California          JESSE L. JACKSON, Jr., Illinois
 ROGER F. WICKER, Mississippi     CAROLYN C. KILPATRICK, Michigan
 HENRY BONILLA, Texas             STEVEN R. ROTHMAN, New Jersey
 DAVID VITTER, Louisiana          MARCY KAPTUR, Ohio              
 MARK STEVEN KIRK, Illinois
 ANDER CRENSHAW, Florida

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
    Charles Flickner, Alice Grant, and Scott Gudes, Staff Assistants,
                     Lori Maes, Administrative Aide
                                ________

                                 PART 1B

               OFFICIAL JUSTIFICATION OF BUDGET ESTIMATES

                  AGENCY FOR INTERNATIONAL DEVELOPMENT

                             (PAGES 1-1488)

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 87-944                     WASHINGTON : 2003

                        COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                    DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California               JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky               NORMAN D. DICKS, Washington
 FRANK R. WOLF, Virginia               MARTIN OLAV SABO, Minnesota
 JIM KOLBE, Arizona                    STENY H. HOYER, Maryland
 JAMES T. WALSH, New York              ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina     MARCY KAPTUR, Ohio
 DAVID L. HOBSON, Ohio                 PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma       NITA M. LOWEY, New York
 HENRY BONILLA, Texas                  JOSE E. SERRANO, New York
 JOE KNOLLENBERG, Michigan             ROSA L. DeLAURO, Connecticut
 JACK KINGSTON, Georgia                JAMES P. MORAN, Virginia
 RODNEY P. FRELINGHUYSEN, New Jersey   JOHN W. OLVER, Massachusetts
 ROGER F. WICKER, Mississippi          ED PASTOR, Arizona
 GEORGE R. NETHERCUTT, Jr.,            DAVID E. PRICE, North Carolina
Washington                             CHET EDWARDS, Texas
 RANDY ``DUKE'' CUNNINGHAM,            ROBERT E. ``BUD'' CRAMER, Jr., 
California                             Alabama
 TODD TIAHRT, Kansas                   PATRICK J. KENNEDY, Rhode Island
 ZACH WAMP, Tennessee                  JAMES E. CLYBURN, South Carolina
 TOM LATHAM, Iowa                      MAURICE D. HINCHEY, New York
 ANNE M. NORTHUP, Kentucky             LUCILLE ROYBAL-ALLARD, California
 ROBERT B. ADERHOLT, Alabama           SAM FARR, California
 JO ANN EMERSON, Missouri              JESSE L. JACKSON, Jr., Illinois
 KAY GRANGER, Texas                    CAROLYN C. KILPATRICK, Michigan
 JOHN E. PETERSON, Pennsylvania        ALLEN BOYD, Florida
 VIRGIL H. GOODE, Jr., Virginia        CHAKA FATTAH, Pennsylvania
 JOHN T. DOOLITTLE, California         STEVEN R. ROTHMAN, New Jersey
 RAY LaHOOD, Illinois                  SANFORD D. BISHOP, Jr., Georgia
 JOHN E. SWEENEY, New York             MARION BERRY, Arkansas             
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
 DAVE WELDON, Florida
 MICHAEL K. SIMPSON, Idaho
 JOHN ABNEY CULBERSON, Texas
 MARK STEVEN KIRK, Illinois
 ANDER CRENSHAW, Florida

                 James W. Dyer, Clerk and Staff Director

                                  (ii)
GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
</pre></body></html>
